January 11, 2010

SYLVESTER BLACK
VICE PRESIDENT, WESTERN AREA

TERRY K. ANDERSON
DISTRICT MANAGER, PORTLAND DISTRICT

SUBJECT: Audit Report – Excess Mail Processing Equipment in the Portland District
         (Report Number EN-AR-10-002)

This report presents the results of our audit of excess mail processing equipment (MPE)
in the Portland District (Project Number 09XG023EN000). Our audit objective was to
assess the management and disposition of excess MPE in the Portland District. This
audit is self-initiated and addresses operational risk. See Appendix A for additional
information about this audit.

Conclusion

The Postal Service could improve its processes and internal controls for managing and
disposing of excess MPE. We found that Portland District management did not properly
and promptly dispose of excess carrier sequence barcode sorter (CSBCS) machines,1
and did not adequately maintain MPE inventory accountability. As a result, there is an
increased risk of loss and misstated value of MPE in financial records. In addition, the
Postal Service may have missed an opportunity to recover partial lease costs of $520,538
for a facility used to store excess CSBCS machines.

Disposition of Excess MPE

Portland District management did not follow procedures as required in Handbook AS-7012
to ensure the prompt and proper notification, recycling, and disposal of MPE. The decline
in mail volume along with efforts to move mail processing operations back to the plants
have resulted in excess CSBCS machines throughout the Postal Service. Portland
District management stored eight excess CSBCS machines in a leased facility for up to
6 years. As a result, the Postal Service received negative media coverage regarding
storage costs. In addition, the Postal Service may have missed the opportunity to sublet


1
 The CSBCS is a small, high-speed barcode sorter designed specifically for decentralized processing in post offices.
2
 Handbook AS-701, Material Management, Section 64, June 2005 (updated with Postal Bulletin revisions through
November 2006).
Excess Mail Processing Equipment                                          EN-AR-10-002
 in the Portland District


the facility and recover partial lease costs of approximately $520,538. See Appendix B
for our detailed analysis of this topic.

Postal Service Actions – In June 2009, Portland District management took corrective
action detailed in the CSBCS Maintenance Management Orders for 2007 and 2009 by
disposing of the eight excess CSBCS machines stored in the leased facility. In addition,
Portland District management disposed of 12 other excess CSBCS machines and
recovered salvage revenue of $1,391 in July 2009.

Inventory Accountability

Portland District management did not ensure inventory listings were current and accurate
as required by Handbook AS-701 and attributed these conditions to insufficient
knowledge of policies and procedures and limited oversight. Two databases3 did not
contain accurate records for the management and disposition of excess CSBCS
machines in the Portland District. In addition, management did not always document and
record MPE transfers within the Portland District. Without accurate inventory listings of
MPE, there is an increased risk of loss and misstated value of MPE in financial records.
See Appendix B for our detailed analysis of this topic.

Postal Service Actions – In August 2009, Portland District management initiated actions
to correct and update data in the FDB database.

We recommend the district manager, Portland District, ensure:

1. Mail processing equipment inventory is current and accurately documented in the
   Enterprise Data Warehouse and Facilities databases.

2. Personnel responsible for the management and accountability of mail processing
   equipment receive appropriate training and adhere to established policies and
   procedures.

We recommend the vice president, Western Area Operations, in coordination with the
vice president, Facilities and the district manager, Portland District:

3. Reconsider subleasing the Albany, Oregon Detached Carrier Unit facility to offset
   lease costs.

Management’s Comments

Management agreed with recommendation 1, to ensure the mail processing equipment
inventory is current and accurately documented. Management stated they would review
equipment inventories beginning March 2010 and make appropriate changes. However,
Portland District management did not agree with the finding that they did not follow

3
    Enterprise Data Warehouse (EDW) and Facilities Database (FDB).




                                                         2
Excess Mail Processing Equipment                                             EN-AR-10-002
 in the Portland District


procedures to ensure the prompt and proper notification, recycling, and disposal of
excess CSBCS machines. Portland District management stated that equipment identified
in the audit report was not identified as excess to the Portland District until June 4, 2009,
when they received notification that Postal Service Headquarters had authorized
excessing of the machines. In addition, management provided clarifying information for
various issues in the report.

Management agreed with recommendation 2, to provide training to personnel responsible
for management and accountability of mail processing equipment. Management
indicated they would reissue policy and instructions with the start of the next semiannual
capital property review in March 2010.

Management agreed with recommendation 3, to reconsider subleasing the Albany,
Oregon Detached Carrier Unit facility to offset lease costs. Management indicated they
would contract for a facility evaluation to determine how best to proceed and would make
a decision in February 2010. See Appendix E for management’s comments in their
entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General considers management’s comments
responsive to the recommendations in the report. Regarding Portland District
management’s disagreement with our finding regarding the prompt and proper
notification, recycling, and disposal of excess CSBCS machines, they were unable to
provide documentation showing when they notified the Western Area of the excess
equipment. We agree that the management of excess equipment is a shared
responsibility and management at other levels may have contributed to the situation, but
believe local management should have made additional efforts to address the situation in
a more timely manner.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael A. Magalski, director,
Network Optimization, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments




                                              3
Excess Mail Processing Equipment       EN-AR-10-002
 in the Portland District



cc:   Patrick R. Donahoe
      Jordan M. Small
      Frank Neri
      Tom A. Samra
      Jack L. Gustafsson
      Sally K. Haring




                                   4
Excess Mail Processing Equipment                                                                      EN-AR-10-002
 in the Portland District


                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Excess MPE is managed and disposed4 of through coordination among the local, district,
area, and headquarters offices. Headquarters purchases MPE and develops policies and
procedures for the lifecycle5 of the equipment. Area management ensures that policies
are carried out through the MPE lifecycle and communicates changes to district and local
sites. District and local personnel are required to follow guidance and report directly to
area personnel any issues regarding excess MPE during weekly teleconferences.

The Portland District is in the Western Area. According to the Web End-of-Run
(WebEOR) Mapping-Machine Information Report the Western Area’s records showed 218
inactive6 CSBCS machines throughout the 13 districts. Chart 1 below shows the number
of inactive CSBCS machines the Western Area reported.




4
  Disposal is the process of properly relinquishing possession of assets that are unrepairable, obsolete, or surplus to the
Postal Service.
5
  The lifecycle guides the equipment from conception to retirement.
6
  Inactive material refers to all assets that are not being used.




                                                            5
Excess Mail Processing Equipment                                                   EN-AR-10-002
 in the Portland District


OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess the management and disposition of excess MPE in the
Portland District. To accomplish our objective, we interviewed local, district, and area
officials, along with personnel at Postal Service Headquarters in Customer Service
Standardization, Technology Acquisition Management, Supply Management Operations,
and Processing Operations. To understand the process and property controls of the
Portland District, we conducted on-site visits at 11 Postal Service facilities. See Table 1
for the list of facilities visited.

                                Table 1. On-site Facility Observations
          Facility Name                                                  City
     1    Albany Main Office                                         Albany
     2    Albany Detached Carrier Unit                               Albany
     3    Portland Sunset Delivery and Distribution Center           Hillsboro
     4    Portland Warehouse                                         Portland
     5    Portland Airport Terminal Self Service Postal Unit         Portland
     6    Portland Mount Hood Delivery and Distribution Center       Portland
     7    Portland Airport Mail Facility                             Portland
     8    Portland Airport Mail Center Annex                         Portland
     9    Portland Processing and Distribution Center                Portland
     10   Tualatin Delivery Carrier Unit                             Tualatin
     11   Wilsonville Main Office                                    Wilsonville


We reviewed Postal Service policies and procedures and Government Accountability
Office (GAO) and U.S. Postal Service Office of Inspector General (OIG) reports for
managing and disposing of excess assets. We obtained data on CSBCS machines and
reviewed selected documents on disposal of these assets.

We conducted this performance audit from May through January 2010 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. We did not directly audit the database systems
but performed a limited data integrity review to support our data reliance. We discussed
our observations and conclusions with management on November 23, 2009, and included
their comments where appropriate.




                                                         6
Excess Mail Processing Equipment                                            EN-AR-10-002
 in the Portland District


PRIOR AUDIT COVERAGE

                      Report
Report Title                       Final Report Date            Report Results
                      Number
Mail               DA-AR-08-008    July 28, 2008       As of February 2008, Postal
Processing                                             Service plant stockrooms are
Equipment                                              maintaining excess MPE spare
Spare Parts:                                           parts. The Postal Service
Plant                                                  incurred unnecessary costs of
Stockrooms                                             approximately $30 million during
                                                       the 2 years ending February 2008
                                                       and can avoid costs of another
                                                       $30 million over the next 2 years.
                                                       Management agreed with the
                                                       findings, recommendations, and
                                                       monetary impact.
Efficiency of      NO-AR-06-005    August 2, 2006      The Postal Service took an
Carrier                                                incremental approach in
Sequence                                               discontinuing use of the CSBCS
Barcode                                                processing at many of its facilities.
Sorters                                                However the OIG found three
                                                       facilities in the Seattle District that
                                                       process mail on delivery barcode
                                                       sorters rather than the CSBCS,
                                                       reducing mail processing and
                                                       maintenance workhours. The
                                                       OIG estimated processing mail on
                                                       delivery bar code sorters would
                                                       save workhours, which could
                                                       produce a cost avoidance of near
                                                       $3.7 million over 10 years.
                                                       Management agreed with the
                                                       finding, recommendations, and
                                                       monetary impact.




                                            7
Excess Mail Processing Equipment                                            EN-AR-10-002
 in the Portland District



                      Report
Report Title                       Final Report Date            Report Results
                      Number
Escalating          GAO-09-475T    March 25, 2009      Fiscal year 2009 financial
Financial                                              condition continues to deteriorate
Problems                                               and projections suggest record
Require Major                                          declines in mail volume by 22.7
Cost                                                   billion pieces, with a net loss of
Reductions to                                          $6.4 billion, and an
Limit Losses                                           unprecedented cash shortfall of
                                                       $1.5 billion. The Postal Service’s
                                                       most immediate challenge is to
                                                       dramatically reduce costs fast
                                                       enough to meet its financial
                                                       obligations. The GAO reported
                                                       the Postal Service has excess
                                                       capacity and needs to consider
                                                       how it can best use its facilities, if
                                                       it is cost effective to retain those
                                                       that are underused and take the
                                                       actions necessary to right size its
                                                       network. Management generally
                                                       agreed with the accuracy of the
                                                       statements in the report.
Improvements         GAO-08-41     December 10, 2007   The facility database data is
in Data Would                                          unreliable and is not used as a
Strengthen                                             centralized source for facility data
Maintenance                                            as planned. The FDB does not
and Alignment                                          conform to the Postal Service’s
of Access to                                           goals; specifically, it does not
Retail Services                                        include data needed to measure
                                                       performance on managing
                                                       facilities or have the capacity to
                                                       track such data over time.
                                                       Management agreed with two
                                                       recommendations; disagreed with
                                                       three recommendations; and
                                                       agreed in principle to one
                                                       recommendation.




                                           8
Excess Mail Processing Equipment                                                                EN-AR-10-002
 in the Portland District


                                APPENDIX B: DETAILED ANALYSIS

Disposition of Excess MPE

Portland District management did not dispose of MPE in accordance with Postal Service
guidance. Although the Postal Service has excessed CSBCS machines nationwide, the
Portland District continued to store CSBCS machines in a leased facility for up to 6 years
and did not notify the Western Area office of the excess CSBCS machines as required.
District managers stated the Western Area office was properly notified of the excess
CSBCS machines; however, they were unable to provide documentation. Handbook AS-
701 states that management is responsible for taking steps to ensure the prompt and
proper recycling and disposal of material. Postal Service Headquarters issued additional
procedures in October 2006 establishing optimal solutions for identifying and disposing of
excess MPE.7 See Appendix C for a flowchart of the process.

During our site visit, we observed eight excess CSBCS machines in storage at a leased
facility. The Postal Service used the leased facility as a detached carrier unit (DCU) until
January 2003 when it moved the carrier operation into the Albany Post Office (PO). As
shown in Illustration 1, from August 2003 through June 2009, the Portland District used
the leased facility as a storage space for excess CSBCS machines and other mail
processing equipment.




                      Illustration 1. Excess CSBCS machines stored in the leased facility.


Based on our audit fieldwork, Portland District management removed and disposed of the
eight excess CSBCS machines from the leased facility in June 2009. In addition, the


7
  Individual offices must notify the Area Manager, In-Plant Support (MIPS) who will determine if there is a need for
redeployment in the area. If equipment is determined to be excess, the MIPS will notify the headquarters Manager,
Processing Operations who will work to redeploy the equipment to other areas. If equipment is determined to be
excess to Postal Service operations, the Manager, Technology Acquisition Management and the Area MIPS are notified
that the equipment is excess and may be disposed of in accordance with Material Handbook AS-701 sections 641 and
642.




                                                         9
Excess Mail Processing Equipment                                           EN-AR-10-002
 in the Portland District


Portland District disposed of 12 other excess CSBCS machines and recovered salvage
revenue of $1,391.

The leased facility has been marketed for sublease since September 2004 and in
February 2009 the Postal Service received an inquiry. The sublease inquiry could have
potentially provided a 50- to 60-percent recovery of the lease obligation for the remaining
lease term through November 2019. When the opportunity was presented to the Western
Area Facility Service Office, management decided not to sublet the property as it might be
useful for meeting future local needs. We recognize management is exercising due
diligence; however, the Postal Service has not actively used the leased facility for
operations in over 6 years. We believe the Postal Service may have missed an
opportunity to partially recover the $10,268 a month lease costs. We estimate the Postal
Service could incur about $520,538 in unnecessary lease costs over a 10-year period. In
addition, the Postal Service spent $46,206 in lease costs that were not recoverable. See
Appendix D for our monetary impact calculation.

Inventory Accountability

Portland District management did not ensure inventory listings were current and accurate
as required by Handbook AS-701. The Portland District used inventory listings from the
EDW Capital Property Listing and FDB systems to identify equipment use and specify
which MPE was active or inactive. As shown in Table 2, we found that the CSBCS
inventory listings were inaccurate and inconsistent in the two systems. During our review,
we determined the Portland District had 20 CSBCS machines at the following facilities:

      Eight CSBCS machine at the Albany DCU.
      Four CSBCS machines at the Grand-Rogue Gateway Annex.
      Four CSBCS machines at the Longview PO.
      Two CSBCS machines at the Tualatin DCU.
      Two CSBCS machines at the Wilsonville PO.




                                            10
Excess Mail Processing Equipment                                                                   EN-AR-10-002
 in the Portland District



           Table 2. Portland District CSBCS Inventory Listings as of May 2009
                           Facility                            EDW                              FDB
                                                Active      Inactive    Cameras8       Active     Inactive
           1     Albany PO                                      6          2
           2     Baker City PO                      2                                      2
           3     Bend PO                                                                   4
           4     Grand-Rogue Gateway
                                                    4           4
                 Annex
           5     Klamath Falls PO                                             4            4
           6     LA Grande PO                       1                         1            2
           7     Longview PO
           8     Pendleton PO                                                              1
           9     Salem Processing and
                                                                             10
                 Distribution Facility
           10    Tualatin Postal Retail Store                                              2
           11    Tualatin DCU                                                                          2
           12    Vancouver Orchards Postal                                                 5
                 Retail Store
           13    Wilsonville PO                                 2                                      2
           14    Dalles PO
           15    Coos Bay Empire Branch
                            Total                   7          12            17           20           4


In addition, we reviewed WebEOR data for MPE to validate the actual number of CSBCS
machines assigned to the Portland District. WebEOR data shows equipment usage. The
database identified eight active CSBCS and 20 inactive CSBCS machines in the Portland
District.

Insufficient knowledge of Postal Service policies and procedures contributed to inventory
discrepancies within the Portland District. As a result, management did not properly
document and record MPE transfers within the Portland District. The Postal Service
Forms 969, Material Recycling and Disposal, that Portland District management provided
for our review revealed capital identification (ID) numbers9 did not always match the
associated pieces of equipment. Portland District management could not provide a
complete history of MPE transfers within the district, in part because it transferred MPE by
placing a telephone call to have the equipment physically moved, without required
documentation.

Without accurate inventory listings of MPE, there is an increased risk that the value of
MPE will be misstated in financial records.




8
 The facilities incorrectly recorded CSBCS machines as cameras in the EDW inventory system.
9
 ID number is a unique 6- or 7-digit number used to identify each piece of capital property owned by the Postal Service.
The San Mateo Accounting Service Center assigns and controls ID numbers.




                                                          11
Excess Mail Processing Equipment                           EN-AR-10-002
 in the Portland District


                        APPENDIX C: EXCESS MPE FLOWCHART




                                       12
Excess Mail Processing Equipment                                                                    EN-AR-10-002
 in the Portland District


                                     APPENDIX D: MONETARY IMPACT

The present value of the amount the Postal Service could have received had it sublet the
Albany DCU is $520,538.10 The Western Area reported that the amount that the Postal
Service could have recovered as a result of subleasing the DCU was from 50- to 60-percent
of the total annual lease cost of $123,216. The value of the remaining lease term is
$1,314,304.

                                                                    Unrecoverable                  Funds Put to
                    Description                                   Questioned Costs11               Better Use12
      Total Present Value of Lease Payments                            $46,206                       $520,538

We estimated using the lower amount of 50 percent recovery for 9 months in 2009 (March
through November) and 120 months from December 2009 through November 2019 for a total
of 120 months.

The $46,206 in unrecoverable questioned costs represents lease costs that were paid from
March to November 2009.




10
   Rent is due at the end of the month and the borrowing rate is .035 percent.
11
   Unrecoverable costs that are unnecessary, unreasonable, or an alleged violation of law or regulation.
12
   Funds that could be used more efficiently by implementing recommended actions.




                                                             13
Excess Mail Processing Equipment                             EN-AR-10-002
 in the Portland District



                         APPENDIX E: MANAGEMENT’S COMMENTS




                                        14
Excess Mail Processing Equipment        EN-AR-10-002
 in the Portland District




                                   15
Excess Mail Processing Equipment        EN-AR-10-002
 in the Portland District




                                   16
Excess Mail Processing Equipment        EN-AR-10-002
 in the Portland District




                                   17
Excess Mail Processing Equipment        EN-AR-10-002
 in the Portland District




                                   18
Excess Mail Processing Equipment        EN-AR-10-002
 in the Portland District




                                   19
